APPENDIX “A”

5044126019

fourth circuit - -

11:19:32

02-27-2019

1 /28

Office Of She Cleric

Court of Appeal, Fourth Circuit
State of Louisiana
•Justin Z. Woods
Clerk of Court

400 Sepal Street
Third Floor

•To&nn Veal
Chief Deputy Clerk of Court

Mailing Addxeaj
410 Sepal Strei
Hew Orleans, Louiaiax
70130-21!

(504) 412-600
PAX (504) 412-601

FAX COVER SHEET
DATE:

02/27/2019

TO:

DONNA ANDRIEU
LEON CANNIZZARO

ALEX K. KRIKSCIUN
RICKEY NELSON JONES
IRENA ZAJICKOVA

JUDGE PAUL BONIN
SUBJECT:

2018-KA-0973

STATE OF LOUISIANA V. REGINALD JONES
NATTER AFFIRMED

FAX:

(504)
(504)
(253)
(504)

571-2928
658-9161
322-4549
571-2928

TOTAL NUMBER OF PAGES, INCLUDING COVER SHEET: 28

IF YOU DO NOT RECEIVE ALL PAGES, PLEASE TELEPHONE THE SENDER AS
SOON AS POSSIBLE.

!
!

STATE OF LOUISIANA

*

VERSUS

*

REGINALD JONES

*
*
*******

!

!■

(
!

i

NO. 2018-KA-0973

COURT OF APPEAL
FOURTH CIRCUIT
STATE OF LOUISIANA

APPEAL FROM
CRIMINAL DISTRICT COURT ORLEANS PARISH
NO. 530-889, SECTION “D”
Honorable Paul A. Bonin, Judge
******
Judge Terri F. Love
******
(Court composed of Judge Terri F. Love, Judge Joy Cossich Lobrano, Judge Paula A.
Brown)
Leon Cannizzaro
District Attorney
Donna Andrieu
Assistant District Attorney
Chief of Appeals
Irena Zajickova
Assistant District Attorney
ORLEANS PARISH
619 S. White Street
New Orleans, LA 70119
COUNSEL FOR APPELLEE, STATE OF LOUISIANA
Alex K. Kriksciun
ATTORNEY AT LAW
400 Poydras Street
Ste. 900
New Orleans, LA 70130
AND
Rickey Nelson Jones
LAW OFFICES OF REVEREND RICKEY NELSON JONES, ESQ.
1701 Madison Avenue
3rd Floor, Suite 5
Baltimore, MD 21217
COUNSEL FOR DEFENDANT/APPELLANT, REGINALD JONES
AFFIRMED
FEBRUARY 27,2019

I

Defendant was charged with aggravated assault with a firearm, possession of
fp firearm by a convicted felon, and obstruction ofjustice after allegedly threatening

A

kill his neighbor with a gun.

A jury found defendant guilty as charged.

Following a multiple bill hearing, the trial court adjudged the defendant a third and
fourth habitual offender and sentenced him to twenty years.
Defendant appeals contending that the trial court erred by denying his
motion for post-verdict judgment of acquittal, as there was insufficient evidence to
support his convictions. Defendant also asserts that his Fifth Amendment rights
were violated by mention of his prior criminal history and ordering him to submit
to fingerprinting at the multiple bill hearing. Defendant lastly contests his guilt as
a habitual offender, maintaining that the evidence submitted was insufficient.
We find that the trial court did not err by denying defendant’s motion for
post-verdict judgment of acquittal, as sufficient evidence was presented to support
his convictions. Defendant failed to show that mentioning his previous criminal
history constituted a violation of rights. As to the multiple bill hearing, defendant
did not admit to being a habitual offender. Therefore, the trial court’s alleged
failure to advise him of the right to remain silent was harmless error. Fingerprints

are a non-testimonial form of identification and ordering defendant to submit them
was not error. The fingerprint testimony and evidence was sufficient to support the
habitual offender adjudication.

Accordingly, the convictions and sentence of

defendant are affirmed.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY
Louis Jones (“Mr. Jones”), the victim, was confronted by the defendant, a
neighbor, Reginald Jones (“Defendant”) on September 12, 2016.

Defendant

allegedly brandished a firearm and threatened to kill Mr. Jones.
As a result of the confrontation, Defendant was charged by bill of
information with aggravated assault with a firearm and possession of a firearm by a
convicted felon, in violation of La. R.S. 14:37.4 and La. R.S. 14:95.1, respectively.
Defendant appeared for arraignment and pled not guilty to the charges. The trial
court found insufficient probable cause to substantiate the charges at the
preliminary hearing. Defendant withdrew his not guilty plea and pled guilty to
aggravated assault with a firearm and was sentenced to five years at hard labor.
The State also entered a nolle prosequi as to the possession of the firearm charge.
The same date, the State filed a multiple offender bill and Defendant pled guilty
thereto. The trial court then vacated the five-year sentence and set a date for
sentencing.
Subsequently, Defendant moved to withdraw his guilty plea. The State
joined the defense’s motion and the trial court ordered that Defendant’s guilty plea
be withdrawn. The State thereafter filed an amended bill of information charging
Defendant with aggravated assault with a firearm, possession of a firearm by a
convicted felon, as well as obstruction of justice, in violation of La. R.S. 14:130.1.
Defendant pled not guilty to the amended bill.
2

A jury found Defendant guilty as charged as to all counts. Defendant filed a
motion for post-verdict judgment of acquittal, which the trial court denied. The
trial court sentenced Defendant to ten years at hard labor on the convictions for
obstruction of justice and aggravated assault with a firearm. The trial court also
sentenced Defendant to ten years at hard labor without the benefit of probation,
parole, or suspension of sentence, as to the felon in possession of a firearm charge.
However, the trial court waived any fees and costs as to all three counts. All
sentences were ordered to run concurrently, with credit for time served.
After sentencing, the State filed a multiple offender bill of information. The
trial court adjudicated Defendant a quadruple offender as to his convictions for
aggravated assault with a firearm (count one) and obstruction of justice (count
three) and a triple offender as to the conviction for felon in possession of a firearm
(count two). The trial court then vacated the previous sentences and resentenced
Defendant to twenty years for each count, to run concurrently, without the benefit
of probation, parole, or suspension of sentence as to the felon in possession of a
firearm charge. Defendant’s appeal followed.
TESTIMONYAND EVIDENCE
Mr. Jones was living with his ex-wife, Brenda Jones, with whom he had an
on-again off-again relationship, at 2542 Elder Street. Defendant lived two houses
down from Mr. Jones and Brenda. Mr. Jones testified that at approximately 9:00
a.m., Defendant approached him on the street as he was walking home from
purchasing cigarettes at a gas station on Franklin Avenue. Mr. Jones stated that
Defendant appeared to be retrieving the garbage can and stopped him “like he
wanted to fight, said “something about [how] I disrespected him and ... he’s
going to do this and that to me.” Defendant stated that Mr. Jones disrespected him
3

when Mr. Jones was arguing with Brenda outside their home one night. Mr. Jones
testified that he had “said something” during his argument with his ex-wife and
Defendant “took it like [he] was speaking about him [Defendant].” Mr. Jones said
that during this encounter, Defendant moved towards him as if he was going to hit
him, but Mr. Jones moved out of the way and continued home. Mr. Jones denied
telling Defendant he was “going to go after him,” but conceded that they continued
to argue as he walked away.
Upon returning home, Mr. Jones began watching television, but then
observed Defendant on his surveillance video standing in his driveway. When Mr.
Jones exited his house, he noticed Defendant had “something in his hand”
resembling a “pistol.” He was ten to twenty feet away from Defendant when he
observed the gun.! Defendant then said he was “going to blow [Mr. Jones’] head
off.’ Mr. Jones stated he was terrified, but maintained his composure. He then
overheard someone call Defendant back and said to “leave the old man alone.”
Mr. Jones went back inside his home and resumed watching television. Mr. Jones
did not call the police to report the incident, but when Brenda returned from work
at approximately 2:00 p.m., he advised that her that the “neighbor down the street”
was

“actfing] a fool.” Mr. Jones showed her the surveillance video, and Brenda

called 911. Mr. Jones informed the police that Defendant pulled a gun on him and
made him nervous. Mr. Jones stated that he had no previous altercations with

z

Jones stated he had “been around guns” when he served as a marksman in the military
In the audio, Brenda advised the 911 operator that her neighbor, Reginald Jones, threatened her
husband with a pistol on her property. She stated she was not present and at work at the time,
but wanted to make a record of the incident Mr. Jones also spoke on the tape and told the
operator that at approximately 10:30 am., Defendant said he was going to “blow [his] f*cking
head off.”
4

Defendant. Mr. Jones identified the surveillance tapes3 and himself on the officer's
body-cam video.4
Mr. Jones was also shown an affidavit that was provided to the prosecution
by defense counsel the morning of trial.5 He testified that he did not write the
statements listed on the affidavit, but acknowledged his signature thereon. Mr.
Jones said Defendant brought the document to his home and drove them both to a
“fax store” to have it signed before a notary. He stated that Defendant indicated
that if he signed the affidavit it would help Defendant resolve the matter. Mr.
Jones explained: “I’ve been with this mess for so long, I just wanted to end it, and
The surveillance tapes (two from different cameras) depict Mr. Jones walking and returning
from Franklin Avenue, Defendant and Mr. Jones’ interaction on the street, and Defendant
subsequently approaching the house and pointing a black gun at Mr. Jones in his driveway.
The body cam video depicts Trooper Leboeufs conversations with Mr. Jones. In the video,
Mr. Jones stated that Defendant accused him of disrespecting him and subsequently went to his
house holding pistol in his right hand. Mr. Jones stated Defendant pointed the gun at him, called
him a motherffcking b*tch a** n*gga,” and said that he would “f*ck [him] up.” Mr. Jones
described the firearm as a black twenty-two pistol.
The affidavit provides, in part:
1. I, Louis Jones, of 2542 Elder Street, New Orleans, LA 70122,
am over 18 years of age and competent to testify.
2- Defendant Reginald Jones and I live in the same neighborhood.
3. We live on the same street and know one another so well that I
have eaten at his mother’s dinner table.
4. One day last year, we both were having a bad day. His mother
had died and I was dealing with some personal challenges.
5. We exchanged some unpleasant words and such led to the
Defendant trying to scare me with a water pistol. The matter ended
without any violence or anyone getting hurt.
6. Someone saw what happened and called police. I was not that
person.
7. This is a classic case of over-reaction regarding something
harmless.
8.1 never thought this would lead to my neighbor getting arrested
and placed in jail.
9. I now believe, and am certain, that no firearms were involved
and no crimes were committed.
10.1 will not, nor ever would, testify against my neighbor over
something so trivial.
11.1 have informed the State Prosecutor to end this over-reaction,
to close this unnecessary prosecution because I will NOT testify
for the State.
12. I am disappointed that the Prosecutor has not dropped all
charges and ended this matter.
13. This criminal case should end immediately and any
continuation with it by the State is unjustified!
5

he told me this would end it, you know, so I was just trying to end it.” He stated
that some of the content on the affidavit was correct, but that several statements
were false, including the fifth statement that Defendant only tried to scare him with
a water pistol;” the ninth statement that “no firearms were involved and no crimes
were committed;” and the eleventh statement that he “informed the State
Prosecutor to end this over-reaction, to close this unnecessary prosecution because
[he] will not testify for the State.”6
On cross-examination, Mr. Jones testified that when Defendant was in the
front of his driveway he did not initially observe a gun, but that he saw the pistol
when Defendant moved closer towards him. When questioned whether he was
sure the gun was an actual pistol or a water gun, Mr. Jones responded he was “ no
expert on guns.

He admitted the only time he observed Defendant with a gun

was the day of the incident. Mr. Jones acknowledged he did not “cower or duck”
when Defendant pointed the gun at him, stating: “I know the Lord above, and if it
was my point in time to go, it would have been my time to go.” He said he
was

terrified though he “didn’t show it.” Mr. Jones also testified that Defendant had
apologized to him and that he had accepted the apology. He testified that he
signed the affidavit even though some of the attestations were untrue because he
wanted everything to be over with... [and] didn’t want to see the young man go to
jail.”8

Mr. Jones also stated that he told Defendant that “number five” was not true, but Defendant still
had him sign the affidavit He was unsure if he advised Defendant that “number ten” was false,
he said didn t really look at it [the affidavit] thoroughly... it was a quick thing done.”
Mr. Jones testified on redirect that on the day of the incident he told both the police and his exwife that Defendant pulled a pistol on him.
On redirect, Mr. Jones again stated that he executed the affidavit because Defendant said “to
sign this piece of paper and it [the case] goes away.”

6

Brenda testified that when she returned from work, Mr. Jones advised her
that Defendant had approached him outside their home with a gun. She stated
upon viewing the surveillance video, she “kn[e]w it was a gun” that Defendant
brandished at Mr. Jones. Brenda called the police. Brenda testified that at no point
did Mr. Jones advise her that the incident did not happen or instruct her not to call
the police. On cross-examination, Brenda conceded that the gun Defendant was
holding “could have been” a toy gun and she could not tell from the surveillance
tape “whether it’s a toy gun or a real gun.” On redirect, however, Brenda noted
that Mr. Jones had informed her the day of the incident that Defendant was holding
a gun.
Trooper Sean LeBoeuf responded to the 911 call.

At the time of the

incident, he was employed as a patrolman by the New Orleans Police Department.
Trooper LeBoeuf testified that when he arrived on the scene, Mr. Jones advised
him that he and his neighbor had an argument and it escalated to a point during
which the neighbor went to Mr. Jones’ house with a gun. Trooper LeBoeuf
identified the body camera video, depicting his conversation with Mr. Jones.
Trooper LeBoeuf viewed and collected the video surveillance footage from Mr.
Jones residence. He then went to Defendant’s house on the comer of Elder Street
and Franklin Avenue, where a woman advised him that Defendant was not home,
but that she would contact him

Trooper LeBoeuf eventually spoke with

Defendant later that day. Trooper LeBoeuf identified the body-cam video of his
interaction with Defendant9 Trooper LeBoeuf testified that he never recovered a

sSSSSSaSSSSSSr

Dusiness. He stated they got into an argument and before Mr. Jones walked away said he “got
7

pistol.
Trooper LeBoeuf admitted, on cross-examination, that he did not obtain a
warrant to search Defendant’s truck or house for a firearm. He also testified that
he did not recover bullets or shell casings from Defendant’s person.

Trooper

LeBoeuf testified that Defendant insisted during his interview that he had a water
gun, not a real gun, and because Defendant was a felon and it “would be dumb for
him to carry a gun.” Defendant also advised Trooper LeBoeuf that he had thrown
the gun in the Peoples Avenue Canal. Trooper LeBoeuf stated that the police did
not search the canal for the disposed water gun. The canal was not searched
because of woody overgrowth and because there was a shortage of manpower. He
believed the surveillance video and Mr. Jones and Brenda’s description of the
incident was sufficient evidence to close the case.
ERRORS PATENT
A review of the record reveals a patent error with regard to Defendant’s
sentence. After the trial court adjudicated Defendant a fourth felony offender as to
his convictions for aggravated assault with a firearm (count one) and obstruction of
justice (count 3) and a third felony offender as to the conviction for felon in
possession of a firearm (count two), the trial court imposed the following
sentences:10

something” for him. Defendant then went to Mr. Jones’ house and said if Mr. Jones “kept
piayin with [him], [he d] hurt [him].” The officer advised he had to place him under arrest for
assault because he pulled a gun on Mr. Jones. Defendant denied having a gun and said it was a
water pistol. When the officer asked him if he could show him the water gun, Defendant said he
threw the water gun in Peoples Canal.
Prior to conducting the multiple bill hearing the trial court imposed an illegally lenient
sentence for the felon in possession of a firearm charge when it neglected to impose a fine. La.
R.S. 14:95.1 (B) mandates imprisonment “at hard labor for not less than ten nor more than twenty
years without the benefit of probation, parole, or suspension of sentence and be fined not less
than one thousand dollars nor more than five thousand dollars” for those convicted of being a
felon in possession of a firearm. However, because the trial court subsequently vacated the
8

And so as to Count 1,1 sentence you to serve 20 years in
the custody of the Department of Corrections, credit for
time served.
As to Count 2, I sentence you to serve 20 years in the
custody of the Department of Corrections, credit for time
served.
As to Count 3, I sentence you to serve 20 years in the
custody of the Department of Corrections, credit for time
served. All sentences are to run concurrent one with the
other.

One second. Hold on. Come back, Mr. Jones. As to
Count 2, I’m going to have to revise that sentence.
As to Count 2, vacate what I said earlier. I’m sentencing
him — under the law, it’s 20 years without benefit of
probation, parole, or suspension of sentence on that
count. And all counts are to run concurrent.
The trial court failed to specify that Defendant’s twenty-year sentences
regarding his fourth felony offender convictions for counts one and three were to
be served “without benefit of probation or suspension of sentence” as required per
La. R.S. 15:529.1(G). Nevertheless, La. R.S. 15:301.1(A) self-activates, providing
that the sentence is deemed to contain the provisions relating to the service of the
sentence without the benefit of parole, probation, and/or suspension of sentence.
State v. James, 07-1578, p. 6 (La. App. 4 Cir. 6/25/08), 988 So. 2d 807, 811. Thus,
we need not vacate and remand for correction.11

sentences imposed after adjudicating Defendant a third and fourth felony offender, any error in
the trial court’s failure to impose a fine was harmless.
As to his third felony offender adjudication for count two, the trial court also restricted his
parole eligibility and La. R.S. 15:529.1(G) only provides- that sentence be served without
probation or suspension of sentence. However, La. R.S. 14:95.1(B) mandates imprisonment “at
hard labor for not less than ten nor more than twenty years without the benefit of probation,
parole, or suspension of sentence” for those convicted of being a felon in possession of a firearm.
Because the underlying conviction for convicted felon in possession of a firearm restricts parole
eligibility, the conditions imposed by the penalty enhancement necessarily incorporates such a
condition of the sentence. State v. Bruins, 407 So. 2d 685, 687 (La. 1981) (“[t]he penalty
9

POST-VERDICT JUDGMENT OF ACQUITTAL
Defendant contends that the trial court erred in denying his motion for post­
verdict judgment of acquittal.
A post-verdict judgment of acquittal “shall be granted only if the court finds
that the evidence, viewed in a light most favorable to the state, does not reasonably
permit a finding of guilty.” La. C.Cr.P. art 821(B). This standard
is similar to the standard for appellate review of the
sufficiency of evidence to support a defendant’s
conviction that the court must determine whether,
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the defendant guilty beyond a reasonable doubt.
State v. Williams, 04-1377, pp. 7-8 (La. App. 4 Cir. 12/1/04), 891 So. 2d 26, 30.
Thus,

[a] motion for post-verdict judgment of acquittal raises the question of

sufficiency of the evidence.” State v. Simmons, 07-0741, p. 15 (La. App. 4 Cir.
4/16/08), 983 So. 2d 200,208.
The well-settled standard for reviewing convictions for sufficiency of the
evidence was outlined by this Court in State v. Haynes, 13-0323, pp. 7-8 (La. App.
4 Cir. 5/7/14), 144 So. 3d 1083,1087-88:
In evaluating whether evidence is constitutionally
sufficient to support a conviction, an appellate court must
determine whether, viewing the evidence in the light
most favorable to the prosecution, any rational trier of
fact could have found the defendant guilty beyond a
reasonable doubt. Jackson v. Virginia, 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560 (1979); State v. Green, 588
So.2d 757 (La. App. 4 Cir. 1991). However, the
reviewing court may not disregard this duty simply
because the record contains evidence that tends to
support each fact necessary to constitute the crime. State
v. Mussall, 523 So.2d 1305 (La. 1988). The reviewing
court is not permitted to consider just the evidence most
increase is computed by reference to the sentencing provisions of the underlying offense” and the
conditions imposed on the sentence are those called for in the reference statute”).
10

favorable to the prosecution but must consider the record
as a whole since that is what a rational trier of fact would
do. If rational triers of fact could disagree as to the
interpretation of the evidence, the rational trier’s view of
all the evidence most favorable to the prosecution must
be adopted. The fact finder’s discretion will be impinged
upon only to the extent necessary to guarantee the
fundamental protection of due process of law. Mussall,
523 So.2d at 1310. “[A] reviewing court is not called
upon to decide whether it believes the witnesses or
whether the conviction is contrary to the weight of the
evidence.” State v. Smith, 600 So.2d 1319, 1324 (La.
1992).
In addition, when circumstantial evidence forms the basis
of the conviction, such evidence must consist of proof of
collateral facts and circumstances from which the
existence of the main fact may be inferred according to
reason and common experience. State v. Shapiro, 431
So.2d 372 (La. 1982). The elements must be proven such
that every reasonable hypothesis of innocence is
excluded. La. R.S. 15:438. This is not a separate test
from Jackson v. Virginia, but rather is an evidentiary
guideline to facilitate appellate review of whether a
rational juror could have found a defendant guilty beyond
a reasonable doubt. State v. Wright, 445 So.2d 1198 (La.
1984). All evidence, direct and circumstantial must meet
the Jackson reasonable doubt standard. State v. Jacobs,
504 So.2d 817 (La. 1987). If a rational trier of fact
reasonably rejects the defendant’s hypothesis of
innocence, that hypothesis falls; and, unless another one
creates reasonable doubt, the defendant is guilty. State v.
Captville, 448 So.2d 676 (La. 1984).

—

“A factfinder’s credibility decision should not be
disturbed unless it is clearly contrary to the evidence.”
State v. McMillian, 2010-0812, p. 6 (La. App. 4 Cir.
5/18/11), 65 So.3d 801,805.
Here, Defendant was convicted of aggravated assault of a firearm, felony
possession of a firearm, and obstruction of justice. Aggravated assault with a
firearm is an assault committed with a firearm. La. R.S. 14:37.4(A). An assault is
an attempt to commit a battery, or the intentional placing of another in reasonable
apprehension of receiving a battery.” La. R.S. 14:36. “Battery is the intentional

11

use of force or violence upon the person of another.” La. R.S. 14:33. A firearm is
defined in La. R.S. 14:3 7.4(B) as “an instrument used in the propulsion of shot,
shell, or bullets by the action of gunpowder exploded within it.” La. R.S.
14:3 7.4(B). “To convict a defendant of aggravated assault with a firearm, the State
has to prove the defendant made an attempt to commit a battery, or intentionally
placed the victim in reasonable apprehension of receiving a battery by the
discharge of a firearm.” State in Interest o/C.B., 52,245, pp. 3-4 (La. App. 2 Cir.
6/27/18), 251 So. 3d 562, 566. “A discharge of the firearm is not an element of the
offense.” Id., 52,245, p. 4,251 So. 3d at 566.
A Firearm
La. R.S. 14:95.1(A) states that “[i]t shall be unlawful for any person who has
been convicted of . . . any violation of the Uniform Controlled Dangerous
Substances Law, which is a felony ... to possess a firearm.”12 The prohibition on
the possession of firearms by a convicted felon, however, does not apply to “any
person who has not been convicted of any felony for a period of ten years from the
date of completion of sentence, probation, parole, or suspension of sentence.” La.
R.S. 14.95.1(C). Thus, to support a conviction for possession of a firearm by a
convicted felon, the State must prove the “defendant: (1) possessed a firearm; (2)
was previously convicted of an enumerated felony; (3) possessed the firearm
within ten years of the previous conviction and; (4) had the general intent to
commit the crime.” State v. Contreras, 17-0735, p. 9 (La. App. 4 Cir. 5/30/18),
247 So. 3d 858,867.

La. R.S. 14.95.1(D) provides that for “the purposes of this Section, ‘firearm’ means any pistol,
revolver, rifle, shotgun, machine gun, submachine gun, black powder weapon, or assault rifle
which is designed to fire or is capable of firing fixed cartridge ammunition or from which a shot
or projectile is discharged by an explosive.”
12

Defendant challenges the firearm requirement.

Specifically, Defendant

contends that the State failed to establish beyond a reasonable doubt that he
possessed a “real gun.” Defendant notes that he advised the investigating officers
that the gun was a toy gun; that the affidavit, signed by Mr. Jones, indicated that
the gun was a water pistol and no firearms were involved; and Brenda, Mr. Jones’
ex-wife, testified that she could not identify the object in Defendant’s hand.
Defendant avers that no firearm was discovered and no weapons expert testified
that he possessed a firearm.
However, a review of the evidence and the testimony demonstrates that the
State presented sufficient proof to demonstrate that Defendant possessed a firearm.
Mr. Jones testified that Defendant threatened to shoot him while holding
something in his hand” that “looked like a pistol.” Subsequent to the incident,
Mr. Jones also informed his ex-wife, Brenda, and the investigating officer, Trooper
LeBoeuf, that Defendant pointed a gun at him. Trooper LeBoeufs and Brenda’s
testimony corroborated Mr. Jones’. Moreover, while Mr. Jones said he was not an
expert on guns, he had experience with guns while he was serving in the military
Although Brenda testified on cross-examination that she could not tell from the
surveillance video whether Defendant was holding “a toy gun or a real gun,” she
also testified on direct examination that she knew it was a gun. As noted above,
Brenda also stated that Mr. Jones told her Defendant was holding a gun the day of
the incident
Even if the jury found Brenda’s testimony inconsistent, evaluating the
credibility of a witness falls squarely within the province of the jury, which may
accept or reject the testimony of a witness in whole or in part It is not the role of
the court of appeal to assess the credibility of witnesses or to reweigh the evidence.
13

See State v• Swanzy, 10-0878, pp. 10-11 (La. App. 4 Cir. 2/16/11), 61 So. 3d 114,
120. Further, the jury had the opportunity to view the body camera video of
Trooper LeBoeuf, wherein Mr. Jones also described the item in Defendant’s hand
as a pistol, and video surveillance of the incident, wherein Defendant appears to
point a gun at Mr. Jones.
Additionally, with regard to the affidavit, Mr. Jones stated that the document
was provided to him by Defendant and that he only signed the affidavit in an
attempt to resolve the case and help Defendant avoid prison. Further, Mr. Jones
explicitly testified that the attestations therein indicating that no firearms were
involved in the encounter and that the gun was a “water pistol” were false. The
jury was entitled to accept Mr. Jones’ testimony rather than the hearsay statements
attributed to him in the affidavit drafted by Defendant days before trial.
Furthermore, while Defendant informed the police that the gun at issue was
a water pistol, he could not produce the toy gun because he threw it in the canal,
which indicates an attempt to dispose of a genuine firearm. Mr. Jones’ and
Brenda s testimony also indicates that Defendant was in possession of a gun. The
jury was permitted to accept their testimony and disregard Defendant’s self-serving
statement to Trooper LeBoeuf. Moreover, Mr. Jones testified that Defendant said
he was going to “blow” his head off, which is inconsistent with someone carrying a
water gun.
The fact that no firearm was recovered and no firearms expert testified at
trial is not fatal. Again, Trooper LeBoeuf stated Defendant threw the evidence in
an overgrown, wooded canal. Trooper LeBoeuf also testified he did not know of
any test that could have indicated Defendant was in possession of a gun because a
gunshot residue test is utilized only when a gun has been fired.
14

Viewing all the evidence in a light most favorable to the prosecution, a
rational trier of fact could have found beyond a reasonable doubt that Defendant
possessed a real gun and; thereby, convict him of possession of a firearm by a
convicted felon and aggravated assault with a firearm. Accordingly, Defendant’s
assertion that the State presented insufficient evidence to establish the existence of
a firearm lacks merit.
Obstruction ofJustice
Defendant also claims that the State could not prove that he obstructed
justice by disposing of the gun when it was not reasonable to for him to think that a
criminal investigation would result from his dispute with Mr. Jones.
La. R.S. 14:130.1 defines obstruction ofjustice and states in relevant part:
A. The crime of obstruction of justice is any of the
following when committed with the knowledge that such
act has, reasonably may, or will affect an actual or
potential present, past, or future criminal proceeding as
described in this Section:
(1) Tampering with evidence with the specific intent of
distorting the results of any criminal investigation or
proceeding which may reasonably prove relevant to a
criminal investigation or proceeding. Tampering with
evidence shall include the intentional alteration,
movement, removal, or addition of any object or
substance either:
(a) At the location of any incident which the perpetrator
knows or has good reason to believe will be the subject
of any investigation by state, local, or United States law
enforcement officersf.j
“[T]he knowledge requirement in La. US. 14:130.1(A) is met if the perpetrator
merely knows that an act ‘reasonably may’ affect a ‘potential’ or ‘future’ criminal
proceeding.” State v. Powell, 15-0218, p. 11 (La. App. 4 Cir. 10/28/15), 179 So.
3d 721, 728, quoting State v. Jones, 07-1052, p. 9 (La. 6/3/08), 983 So. 2d 95, 101;

15

State v. Tatum, 09-1004, p. 12 (La. App. 5 Cir. 5/25/10), 40 So. 3d 1082, 1090.
“The defendant must also have tampered with evidence ‘with the specific intent of
distorting the results’ of a criminal investigation.” Id., quoting La. R.S.
14:130.1(A)(1). “Nothing beyond ‘movement’ of the evidence is required by the
statute if accompanied by the requisite intent and knowledge.” Id., quoting Jones,
07-1052, p. 10,983 So. 2d at 101.
Here, as noted above, Trooper LeBoeuf testified that in the course of the
investigation, Defendant advised him he threw the gun in the Peoples Avenue
Canal. Defendant also admitted to disposing of a “water pistol” in the body-cam
video offered into evidence. Moreover, Defendant told Trooper LeBoeuf that he
would not possess a real gun because he was previously convicted of a felony.
Jurisprudence indicates that a prior conviction, alone, is sufficient to find
that a defendant had the knowledge required by the statute.” Powell, 15-0218, pp.
11-12, 179 So. 3d at 728. In Jones, this Court found the defendant possessed the
requisite knowledge he was obstructing a potential criminal proceeding in part
because defendant was on probation for a drug offense and possession of
marijuana would constitute a violation thereof. The Court stated:
Here, the defendant moved the marijuana from his person
to the ground, with the knowledge that a future criminal
proceeding reasonably might be affected by this action,
i.e., there might be a future criminal proceeding if the
police found drugs on his person. Finally, defendant was
on probation for a drug offense and possession of
marijuana constituted a violation of the special conditions
of his probation. He was clearly attempting to avoid a
future criminal proceeding revoking his probation, as he
stated that the reason he dispossessed himself of the
marijuana was that he was on probation. Therefore, [the
knowledge] requirement of La. R.S. 14:130.1(A) is met.
Jones, 07-1052, pp. 9-10, 983 So. 2d at 101.

16

Further, “the investigation need not have been underway at the time of the
obstruction for the statute to have been violated—i.e., the obstruction must only be
committed with the knowledge that the act reasonably may affect ‘an actual
or potential present, past, oxfuture criminal proceeding.’” Powell, 15-0218, p. 12,
179 So. 3d at 728, quoting La. R.S. 14:130.1(A) (emphasis in original).
In the present case, Defendant admitted to discarding the gun, which
established that he secluded a piece of evidence with the intent to distort the results
of an investigation. In feet, because Defendant disposed of the gun and the police
were unable to recover it, he was able to assert at trial that the weapon was a water
gun. Also, Defendant insisted to Trooper LeBoeuf it would be “dumb” to cany
firearm based on a prior conviction, which, as in Jones, further evidenced that
Defendant knew possession of a gun could affect potential criminal proceedings
against him. A reasonable juror could therefore conclude that by disposing of the
gun in the canal, Defendant was attempting to avoid future criminal proceedings.
Accordingly, we find that sufficient evidence existed to support his conviction for
obstruction ofjustice.
No Probable Cause
Defendant also claims that there was insufficient evidence to support his
convictions because the trial court found there was no probable cause to
substantiate the charges at his preliminary hearing. However, “[t]he primary
function of the preliminary examination is to determine if there is probable cause
to believe a defendant has committed a crime in order to hold him on his bond
obligation for trial.” State v. Baham, 13-0901, p. 3 (La. 6/28/13), 117 So. 3d 505,
507. La. C.Cr.P. art. 296 provides, in relevant part:

17

If the defendant has not been indicted by a grand jury for
the offense charged, the court shall, at the preliminary
examination, order his release from custody or bail if,
from the evidence adduced, it appears that there is not
probable cause to charge him with the offense or with a
lesser included offense. If the defendant is ordered held
upon a finding of probable cause, the court shall fix his
bail if he is entitled to bail.
The State was only required to present a prima facie case. State v. Lewis,
09-0350, p. 5 (La. App. 4 Cir. 12/16/09), 28 So. 3d 548, 552. “If the evidence does
not support probable cause, the court must order defendant’s release from custody
or bail.” Id. A finding of no probable cause does not result in a judicial dismissal,
as “[t]he State may still proceed against the defendant.” Id. Thus, the trial court’s
finding of no probable cause at the preliminary hearing results only in the release
of custody and/or bail. It does not affect the ability of the State to prosecute
Defendant nor is it relevant to Defendant’s subsequent conviction.
Defendant also contends that the trial court erred in declining to modify the
verdict to simple assault, a lesser included verdict of aggravated assault with a
firearm. La. C.Cr.P. art 821 allows the trial court to “modify the verdict and
render a judgment of conviction on the lesser included responsive offense” in lieu
of granting a post-verdict judgment of acquittal.13 However, Defendant then avers
that there is insufficient evidence to establish simple assault because there is no
evidence that Mr. Jones was in reasonable apprehension of receiving a battery or
that Defendant attempted to commit a battery. The trial court did not enter a

13 La. C.Cr.P. art 814 does not set out legislatively authorized responsive verdicts for the
aggravated assault with a firearm. La. C.Cr.P. art. 815 therefore applies and provides the verdict
“ ref^1V®lfthe offense 1S a less?r 30(1 included offense. State v. Dufore, 424 So. 2d 256,258
(La. 1982). Lesser and included offenses “are those in which all of the essential elements of the
lesser offense are also essential elements of the greater offense charged.” State v. Porter. 93* P' , (^7/5/94), 639 So. 2d 1137,1140, n.6. Simple assault is responsive to aggravated
assault with a firearm. See 17. La. Civ. L. Treatise, Criminal Jury Instructions §10:37 (3d ed.).
18

verdict of simple assault14 or otherwise modify the verdict because there was
sufficient proof to sustain the convictions.
DEFENDANT’S PREVIOUS CRIMINAL HISTORY
Defendant asserts that the trial court erred in allowing the prosecution to
refer to his previous criminal histoiy during trial and in closing arguments when he
invoked his Fifth Amendment privilege and elected not to take the stand at trial.
The State referenced Defendant’s prior conviction for possession of cocaine
in relation to his felon status for the charge of the possession of a firearm by a
convicted felon. The State introduced a certified copy of Defendant’s 2006 guilty
plea for cocaine possession and the parties stipulated as to its authenticity and that
the conviction qualified as a “valid predicate for [La. R.S. 14:]95.1.” The State
was permitted to introduce evidence relating to his previous conviction as proof
thereof is an essential element of the crime of felon in possession of a firearm.
Further, because the defense did not object to the introduction of Defendant’s drug
conviction and in fact stipulated thereto, Defendant failed to preserve this issue for
appellate review. See La. C.Cr.P. art. 841(A) (“[a]n irregularity or error cannot be
availed of after verdict unless it was objected to at the time of occurrence”); State
v. Brooks, 98-0693, p. 9 (La. App. 4 Cir. 7/21/99), 758 So. 2d 814, 819 (a
defendant must make known the grounds for his objection, and he is limited on
appeal to those grounds articulated at trial).
Defendant’s prior convictions for drug possession and negligent homicide
were also raised at the sentencing hearing and the multiple offender hearing.
Nevertheless there is testimony wherein the jury could find that Defendant attempted to batter
Mr. Jones or placed him m reasonable apprehension of receiving a battery. Mr. Jones testified
°T°A°U^ie hish°me ^ a 8™ “d threatened to shoot his head off. Mr. Jones
noted that that he did not “jump back” and was able to keep his composure but said he was
terrified. Mr. Jones also reported to Trooper LeBoeuf that Defendant’s actions made him
nervous.
19

However, previous criminal activity is a proper factor for the trial court to consider
at the sentencing phase. See La. C.Cr.P. art. 894.1 (providing guidelines for
sentencing and lists several non-exclusive factors for a court to evaluate in
determining the appropriate sentence to be imposed, including defendant’s prior
criminal record); State v. Ballett, 98-2568, p. 25 (La. App. 4 Cir. 3/15/00), 756 So.
2d 587, 602 (holding that the trial court is entitled to consider the defendant’s
entire criminal history in determining the appropriate sentence to be imposed); La.
R.S. 15:529.1 (providing enhanced sentences for repeat felony offenders).
The closing arguments were not included in the record for appeal. As noted
by the State, counsel for Defendant did not designate that the closing arguments be
part of the record. See La. C.C.P. art. 914.1(A) (providing that the “party making
the motion for appeal shall, at the time the motion is made, request the transcript of
that portion of the proceedings necessary, in light of the assignment of errors to be
urged”). He also did not file

motion to supplement the record with the closing

statements. The trial transcript does not indicate that any objections were made to

■----

the prosecution’s closing statements. As such, to the extent that the State allegedly

__-

improperly referred to Defendant’s prior crimes in closing statements, the
allegation concerning the impropriety thereof was waived and Defendant cannot
raise the issue on appeal.

As Defendant failed to establish that his Fifth

Amendment rights are implicated by the prosecution’s reference to his prior
convictions at trial and sentencing, his assertion lacks merit
MULTIPLE BILL HEARING
Defendant’s remaining assignments of error regarding the multiple bill
hearing will be addressed concurrently.
“To obtain a multiple offender conviction, the State is required to establish
20

both the prior felony conviction and that the defendant is the same person
convicted of that felony.” State v. Payton, 00-2899, p. 6 (La. 3/15/02), 810 So.2d
1127, 1130, quoting State v. Neville, 96-0137, p. 7 (La. App. 4 Cir. 5/21/97), 695
So. 2d 534, 538-39.

“There are various methods available to prove that the

defendant is the same person convicted of the prior felony offense, such as
testimony from witnesses, expert opinion regarding the fingerprints of the
defendant when compared with those in the prior record, or photographs in the
duly authenticated record.” State v. Wolfe, 99-0389, p. 4 (La. App. 4 Cir. 4/19/00),
761 So. 2d 596,600.
Here, to establish Defendant was a multiple offender, the State introduced
several exhibits, including a print-out from the Department of Public Safety and
Corrections, Probation and Parole Division, showing Defendant was convicted of
possession of cocaine in the 18th Judicial District Court of Iberville Parish, in C ase
Nos. 1723-05 and 611-06A, and that probation was set to expire on those
convictions on November 6, 2011, and on August 18, 2014, respectively.15 The
State also introduced the fingerprints of Defendant, taken earlier that day; the
certified conviction packet, and arrest register for the negligent homicide for Case
No. 393-173 from the Orleans Parish Criminal District Court; the certified
conviction packet in Case No. 173-05 from the 18th District Court of Iberville
Parish for possession of cocaine; the certified documents in Case No. 611-06A
from the 18th District Court of Iberville Parish for possession of cocaine; and the

Agent Kenneth Temple, a probation and parole officer, identified this exhibit in open court
lhe pnnt-out establishes that the predicate convictions for drug possession fall within the ten
year cleansing penod prescribed by La. R.S. 15:529.1(C).
21

arrest register of the instant case.16 Officer Kevin Bell, whom the trial court
accepted as an expert in the examination and analysis of latent fingerprints,
compared the fingerprints contained in the certified package of documents from
Defendant’s prior convictions and the arrest registers, and matched them to
fingerprints taken ofDefendant the day of the multiple bill hearing.17
Right to Remain Silent
Defendant alleges that the trial court erred in failing to advise him of his
right to remain silent during the multiple bill hearing. La. R.S. 15:529.1(D)(3)
provides:
When the judge finds that he has been convicted of a
prior felony or felonies, or if he acknowledges or
confesses in open court, after being duly cautioned as to
his rights, that he has been so convicted, the court shall
sentence him to the punishment prescribed in this
Section, and shall vacate the previous sentence if already
imposed, deducting from the new sentence the time
actually served under the sentence so vacated. The court
shall provide written reasons for its determination Either
party may seek review of an adverse ruling.
However, as to these requirements, this Court in State v. Jones, 14-1118, p. 10 (La.
App. 4 Cir. 4/1/15), 165 So. 3d 217, 224, recently stated that they ‘“should not
serve as technical traps for an unwary but otherwise conscientious judge.’”
(quoting State v. Cook, 11-2223, p. 1 (La. 3/23/12), 82 So. 3d 1239, 1240 (per

The certified copies of Defendant’s conviction for negligent homicide and his two convictions
tor possession of cocaine show feat Defendant pled guilty to fee charges and was represented by
counsel. See State v. Francois, 02-2056, p. 6 (La. App. 4 Cir. 9/14/04), 884 So. 2d 658, 663 (if
e efendant denies fee multiple offender allegations then fee burden is on fee State to prove (1)
fee existence of a prior guilty plea, and (2) feat defendant was represented by counsel when fee
p ea was taken). Defendant does not raise any infringement of his rights, or a procedural
irregularity m the taking of fee guilty plea on appeal such that it would shift the burden back to
fee State to prove fee constitutionality of fee plea. As will be discussed later herein, Defendant’s
arguments regarding his adjudication as a multiple offender relate to fee quality of the
fingerprints and fee training and qualifications of Officer Bell.
Officer Bell noted fee fingerprints contained in fee certified conviction for negligent homicide
in Case No. 393-173 were not legible. However, Officer Bell was able to match fee certified
packet wife fee arrest date and charges contained in fee arrest register ofDefendant
22

curiam)). Therefore, “appellate courts are permitted to review records to determine
whether a [defendant's interests were fully protected and any technical noncompliance with the statutory directives . . . was harmless.’” Id., quoting
Cook, 11-2223, p. 2, 82 So. 3d at 1240-1241. ‘“Generally, a trial court’s failure to
advise the defendant of his right[s] ... is considered harmless error, when the
defendant s multiple offender status is established by competent evidence offered
by the [prosecution] at a hearing, rather than by admission of the defendant.’”
Jones, 14-1118, p. 10, 165 So.3d at 225, quoting State v. Hayes, 12-0357, p. 13
(La. App. 4 Cir. 1/23/13), 108 So. 3d 360, 368. “This review is often performed
in light of the documentaiy proof introduced by the [prosecution] at the hearing
that the defendant is the person who pled guilty to the predicate offenses, and in
light of the defendant’s own admissions in his testimony at trial.’” Id., quoting
State v. Brown, 11-1656, pp. 1-2 (La. 2/10/12), 82 So. 3d 1232, 1233-34 (per
curiam).
“A criminal defendant need not be informed of these rights, however,
following that defendant’s decision to deny the allegations contained in the
multiple bill and to proceed to a full adjudication by formal hearing of the
defendant’s habitual offender status.” Jones, 14-1118, p. 11, 165 So. 3d at 225.
Moreover, the habitual offender law only affords the advisement of rights
protection to those “that confess their status as habitual offenders.” Id.
In the present case, Defendant contested the allegations in the multiple bill.
The formal hearing was held and the prosecution introduced competent evidence
that established Defendant was a third and fourth felony offender. Defendant did
not admit or confess that he was a multiple offender. Thus, any Mure on part of
the trial court to advise Defendant of his right to remain silent was harmless.
23

Fifth Amendment Privilege
Defendant also contends that the trial court erred by compelling him to
submit to fingerprinting in violation of this Fifth Amendment privilege against
self-incrimination and the right to remain silent.
At the beginning of the multiple bill hearing, the State advised the trial court
that Officer Bell was “prevented by somebody in the audience from fingerprinting”
Defendant and asked the trial court to order Defendant to submit to fingerprinting.
The trial court so ordered. Defendant did not object to the trial court’s order and
responded Yes, Your Honor.” The record reflects that Defendant’s fingerprints
were then taken by Officer Bell.
Because Defendant did not object the trial court’s ruling, he is precluded
from raising the issue on appeal.

Nonetheless, it is well established that

[fjingerprint evidence is a non-testimonial means of identification and does not
violate defendant’s privilege against self-incrimination.” State v. McCullom, 480
So. 2d 430, 432 (La. App. 4th Cir. 1985). Thus, Defendant’s Fifth Amendment
rights were not violated by being fingerprinted by Officer Bell in open court
Fingerprint Evidence and Testimony
Defendant maintains that the trial court erred in adjudicating him a multiple
offender based on “faded, non-existent, and miniscule” fingerprints and
unqualified opinion testimony.
The fingerprints Defendant claims are insufficient to establish his prior
conviction are contained in the documents related to his possession of cocaine plea
in Case No. 611-06A. On cross-examination by defense counsel, Officer Bell
conceded that the fingerprints in S-6 were not the same size as the prints taken on
the day of the hearing. Officer Bell also acknowledged that the fingerprints in S-6
24

are lighter than those contained on the fingerprint card. However, Officer Bell
testified on several occasions that he used a magnifying glass to assist him in
comparing and matching the fingerprints. Moreover, Officer Bell testified as to his
training and qualifications in analyzing latent fingerprints.
An expert may be qualified “by knowledge, skill, experience, training or
education.

La. C.E. art. 702. “Courts may also consider whether a witness has

previously been qualified as an expert.” State v. Ferguson, 09-1422, p. 25 (La.
App. 4 Cir. 12/15/10), 54 So. 3d 152, 166. “(Tjhe trial judge has wide discretion
in the area of the qualifications of an expert witness, and such discretion will not
be disturbed on appeal in the absence of manifest error.” State v. Chapman, 410
So. 2d 689, 704 (La. 1981).
Officer Bell testified at die hearing that he took four different classes, which
combined amounted to 144 hours in training, to obtain professional certification to
become a latent fingerprint examiner. Officer Bell stated he had been accepted as
an expert in the field of fingerprint identification more than seventy times and
never been denied qualification as an expert by a trial judge. Officer Bell further
testified that in all the proceedings in which he had been involved, no counter­
expert had challenged his fingerprint analysis nor has anyone challenged his
credentials. He also said that he analyzed fingerprints eight hours a day, five days
a week. Accordingly, Officer Bell’s experience and training qualified him in the
field of fingerprint and the trial court did not err in accepting him as an expert.
Defendant also contests Officer Bell’s ability to analyze fingerprints because
he admitted at the hearing to having ‘Vision issues.” The vision problems to which
Defendant refers is Officer Bell’s admission that he wore glasses. He stated that he
had worn glasses since high school and while he believed he was far-sighted, he
25

was unsure. However, Officer Bell’s necessity for glasses given his far or nearsightedness failed to render him incapable or unqualified to provide an opinion
regarding fingerprint identification.18
We find that Officer Bell’s testimony and the exhibits offered by the State
were sufficient to adjudicate Defendant

fourth felony offender as to his

convictions for aggravated assault with a firearm and obstruction of justice and a
third felony offender as to his conviction for possession of a firearm by a convicted
felon.
DECREE
For the above-mentioned reasons, we find that the trial court did not err by
denying Defendant’s motion for post-verdict judgment of acquittal, as sufficient
evidence was presented to support his convictions. Defendant’s failed to show any
mention of his previous criminal history constituted a violation of his Fifth
Amendment rights. As to the multiple bill hearing, Defendant did not admit to
bemg a habitual offender. Therefore, the trial court’s alleged failure to advise him
of the right to remain silent was harmless error. Ordering Defendant to submit to
fingerprinting at the multiple bill hearing was not a violation, as fingerprints are
non-testimonial identification.

The fingerprint testimony and evidence was

sufficient to support a habitual offender adjudication. Accordingly, the convictions
and sentence of Defendant are affirmed.
AFFIRMED
Defendant also suggests in his brief that he was improperly adjudicated a multiple offender
because Officer Bell did not use “mechanical means” in assisting him in analyzing fingerprints.
Presumably, Defendant is referring to Officer Bell’s testimony that a computer program,
specifically the Automated Fingerprint Identification System, was employed to “pull”
Defendants fingerprints, but not was used to compare them. Officer Bell testified the computer
only provided suggestions and could not match fingerprints. He also stated that his analysis and
nngerpnnt identification were more accurate than the computer.
26

APPENDIX “B”

CRIMINAL DISTRICT COURT FOR THE PARISH OF ORLEANS
STATE OF LOUISIANA
NO. 530-889

SECTION “D” 1
STATE OF LOUISIANA
versus
REGINALD JONES

Verdict Form
Aggravated Assault with a Firearm-La. ILS. 14:3*1A
We, the jury, find the defendant, Reginald Jones
Guilty as charged of aggravated assault with a firearm
Or
Guilty of aggravated assault
*

Or
Guilty of simple assault
Or
Not guilty

Signed by die Foreperson
New Orleans, Louisiana, April 2,2018

)

PltsjoM-,
j ^uf Heju^-

v*W/ CKJP\ceaXyit~'

<2^$£B0i+-'LO''

P(M6Ja<s${. %J&zJ!&x^-'

ty&d&L A-i
fy-ii&Citte&rei, i^b

Aptil X, '!£>&

CRIMINAL DISTRICT COURT FORTHB RAKISH OF ORLEANS
STATF OF LOUISIANA
J

SECTION “D” )

NO. 530-889
STATE OF LOUISIANA
versos

REGINALD JONES

Verdict Form
Possession of a Fircaxic or Concealed Weapon by a Felon - La- R-S-I4:95JL

We, tiie jury, find the defendant, Reginald Jones
Guilty as changed of possession of a firearm or concealed weapon by a felon
Or
Guilty of attempted possession of a firearm or concealed weapon by a felon
Or
Not Guilty

Signed by the Foreperson
New Orleans, Louisiana, April % 2018

i

l/Jlf

jvfci-) <pryA- tfhe—

'f’Wif'aJd ^r\eg

•G\Atttj as. droq^
c^ftrea/k- or (JOW&M&-bCjO^t &K_ •

pqyvpjb,^ %. uiSretoA^
Oc-t<sWV5. / *s<-

CRIMINAL DISTRICT COURT FOR THE PARISH OF ORLEANS
STATE OF LOUISIANA
!

SECTION “XT 1

NO. 530-889
STATE OF LOUISIANA
versus
REGINALD JONES

Verdict Form
Obstruction of Justice — La. R.S. 14:130J[
We, die jury, find die defendant, Reginald Janes

Guilty as charged of obstruction ofjustice
Or

Guilty of attempted obstruction ofjustice
>

Or

Not guilty

Signed by the Foreperson
New Orleans, Louisiana, April 2,201Z

UJc, '-Pbt-jwu, <fy$
de^enMr~&/
^airoM-dOA^, ■aO'Vfy ct& cVwdjf3^—

Ok OtastaxS^yv~<$fom€-(>C' ft. (jiWrdDA^
^{ l
K)£LOOCUCU%, U

APPENDIX “C”

0

Neutral

As of: June 15, 2020 1:51 PM Z

State v. Jones
Supreme Court of Louisiana
March 16, 2020, Decided
No. 2019-K-00533
Reporter
2020 La. LEXIS 931 *; 2019-00533 (La. 03/16/20);
STATE OF LOUISIANA VS. REGINALD JONES

Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.
DECISION WITHOUT PUBLISHED OPINION

Prior History: [*1] IN RE: Reginald Jones - Applicant
Defendant; Applying For Writ Of Certiorari, Parish of
Orleans Criminal, Criminal District Court Number(s)
530-889, Court of Appeal, Fourth Circuit, Number(s)
2018-KA-0973.

State v. Jones. 2019 La. Add. LEXIS 358 (La.Add. 4
Cir.. Feb. 27. 2019)

Judges: Bernette J. Johnson, John L. Weimer,
Jefferson D. Hughes, III, Scott J. Crichton, James T.
Genovese, William J. Crain, James H. Boddie.

Opinion
Writ application denied.

End of Document

SUPREME COURT OF LOUISIANA

ORDER

Acting under the authority of Article V, Sections 1
and 5 of Constitution of 1974, and the inherent power of this
Court, and considering the ongoing spread of Coronavirus Disease
2019 (COVID-19) in Louisiana, Governor John Bel Edwards'
declaration of a public health emergency in Proclamation Number
25 JBE 2020, President Donald Trump's declaration of a national
emergency on March 13, 2020, Governor John Bel Edwards'
extension of emergency provisions in Proclamation Number 74 JBE
2020, and the need to amend the Order of this Court dated May
15, 2020,

IT IS HEREBY ORDERED THAT:
All filings which were or are due to this Court between
Thursday, March 12, 2020 through Monday, June 15, 2020 shall be
considered timely if filed no later than Tuesday, June 16, 2020.
Parties who are unable to meet this deadline due to the COVID-19
emergency may submit motions for extensions of time, supported
by appropriate documentation and argument.
Given under our hands and seal this 5th day of June A.
D., 2020, New Orleans, Louisiana.

FOR THE COURT:

APPENDIX "D"

SUPREME COURT
STATE OF LOUISIANA
Docket No.:
STATE OF LOUISIANA
versus
REGINALD JONES
Appeal From
Criminal District Court Orleans Parish,
Case No.: 530-889, Section D
By Hon. Judge Phillip Bonin
APPLICATION FOR WRIT
ON BEHALF OF REGINAL JONES
THE DEFENDANT
A CRIMINAL CASE

Alex K. Kriksciun
Law Offices of Alex Kriksciun
400 Poydras Street, Suite 900
New Orleans, LA 70130
(504) 814-7396
alex@kriksciunlaw .com
Louisiana Bar#: 31819
Local Counsel for Applicant

Rickey Nelson Jones
Law Offices of Reverend Rickey
Nelson Jones, Esquire
3rd Floor - Suite 5
1701 Madison Avenue
Baltimore, MD 21217
(410) 462-5800
Joneses003@msn.com
Maryland Bar #: 12088
Pro Hac Vice & Lead Counsel
for Applicant

On the Application:
RICKEY NELSON JONES

RULE X, SECTION 1(a) CONSIDERATIONS APPLICABLE
1. The decision of the Louisiana Court of Appeal, Fourth Circuit, conflicts
with a decision of the United States Supreme Court, namely, Jackson v.
Virginia. 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979). (Part 1 of
Rule X)
2. The Louisiana Court of Appeal, Fourth Circuit, has erroneously applied
the Constitution of the United States, namely, the Fourteenth
Amendment, and such has sent a sickly man (See. Part IV below) to jail for
20 years due to a harmless incident with his neighbor, despite the
complete failure of the State to prove that there was a Firearm, as defined
by statute. (Part 4 of Rule X)
STATEMENT OF THE CASE
On November 9, 2017, the State and Defense stipulated that there was NO
Probable Cause in the case (the criminal court found likewise). (Appendix, page
1). Nonetheless, defendant was offered a plea on the day before his Trial. After
the public defender urged him to accept the plea one day before Trial, he did.
However, he requested that the Criminal District Court permit him to withdraw
his plea due to the poor preparation of his counsel. On March 15, 2018, a hearing
was conducted and the court found the public defender unprepared for Trial and
granted defendant’s request (Appendix, page 2). In response, the State
aggressively tried the defendant, and he was found “Guilty” by a non-unanimous

2

jury (10 to 2)1 of three crimes, namely, Aggravated Assault With A Firearm (La.
R.S. 14:37.4), Possession of a Firearm or Concealed Weapon by a Felon (Ls. R.S.
14:95.1), and Obstruction of Justice (La. R.S. 14:130.1). (Appendix, page 3).
Defendant filed a Motion for Post-Verdict Judgment of Acquittal” on April 24,
2018, and it was Denied. Defendant was sentenced to 10 years imprisonment on
May 4, 2018. Five days later, defendant filed a Motion for Appeal, which was not
signed within the law-mandated 72 hours. The State proceeded with a Habitual
Offender (La. R.S. 15:529.1) Hearing on August 2, 2018, and defendant was
convicted and sentenced to 20 years imprisonment. The Court signed defendant’s
Motion for Appeal on August 6, 2018 and denied his Motion to Reconsider
Sentence. On October 6, 2018, defendant filed his Original Brief with the
Louisiana Court of Appeal, Fourth Circuit. On February 27, 2019, the Court of
Appeal “Affirmed” the Criminal District Court of Orleans Parish. (Appendix, page
6). On March 7, 2019, defendant filed his Application for Rehearing. On March
15, 2019, the Court of Appeal “Denied” the Application for Rehearing. (Appendix.
page 33)
OVERSIGHT/ERRORS BY APPELLATE COURT

1 On Monday, March 16, 2019, the United States Supreme Court decided to consider
overturning a criminal conviction by 10-to-2 jury vote in Louisiana in the case of
Evangelisto Ramos. This occurs four months after the Louisiana Voters amended the
State Constitution to prohibit non-unanimous verdicts in criminal cases. Also, the U.S.
Supreme Court has already held that the sixth amendment requires unanimous verdicts
in federal criminal cases. The 10-to-2 jury vote against defendant herein is further
support for the defendant’s argument about the prosecutions’ failures (as recognized by
two jurors) and the need for acquittal.
3

[1]

When the appellate court concluded that there was sufficient evidence to
support defendant’s conviction of aggravated assault with a
firearm (as well as the other charges), it relied on evidence which was not
constitutionally sufficient due to [1] no proof of a firearm beyond a
reasonable doubt per statutory definition and [2] the prosecution’s
stipulation of no probable cause for the charges. Hence, proceeding to
evaluations of sufficiency or insufficiency of evidence were constitutionally
incorrect.

[2]

Never proving a firearm beyond a reasonable doubt, as defined by
Louisiana Statute, rendered conviction on the other charges factually
impossible and constitutionally incorrect.
SUMMARY OF ARGUMENT
[I] When the appellate court affirmed the lower court’s conviction and

sentence of defendant, it overlooked {i} the constitutionally insufficient evidence
presented by the prosecution and {ii} the State’s stipulation of no probable cause
for the charges. Therefore, proceeding to evaluations of sufficient of evidence
were in error. This is magnified since “constitutionally sufficient evidence” serves
as a condition to embarking on sufficiency of evidence evaluations due to the
“profound judgment about the way in which law should be enforced and justice
administered [in this country].” In re Winship. 397 U.S. at 361; Jackson v.
Virginia. 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979).
[II] Due to counts two and three’s inseparable connection to count one,
4

the prosecution’s failure to prove a Statutory Firearm beyond a reasonable
doubt rendered it impossible to prove counts two and three. The appellate
court’s oversight regarding count one “bled” into its oversight on counts two
and three. Such is evident in the Court of Appeal using the State’s failed
attempt to prove a Statutory Firearm, beyond a reasonable doubt, as the basis
of its analysis to support the convictions on counts two and three.
ARGUMENT & FACTS
[I]
Consistent with Louisiana Statute, the appellate court stated, at page 12,
of its Opinion that “A Firearm is defined in La. R.S. 14:37.4(B) as ‘an instrument
used in the propulsion of shot, shell, or bullets by the action of gunpowder
exploding within it.” Nonetheless, the appellate court proceeded to present
evidence from the case that did not prove, beyond a reasonable doubt, that the
defendant possessed “an instrument used in the propulsion of shot, shell, or
bullets by the action of gunpowder exploding within it.” On pages 13-14, the
appellate court referenced [i] the key witness’ testimony that the defendant
threatened to shoot him while holding something that looked like a pistol;
however, that same witness testified later he was not sure what was in
defendant’s hand. He also signed (and had notarized) an affidavit swearing that
no firearms were involved, and defendant merely tried to scare him with a water
pistol!2 [ii] The remaining witnesses were not present and/or acknowledged not
2 Of course, the State sought to undermine the affidavit and threatened Mr. Jones (its key
witness) with perjury, actually referencing that possibility during the trial. The State’s 5

knowing what defendant had. [iii] A grainy video only showed a black object in
defendant’s hand, the same object the key witness, who was right in front of
defendant and had marksman experience from the military, honestly admitted he
did NOT know what it was and was certain no firearm was involved in the
encounter, [iv] The Trooper who responded to the call testified he did not find a
gun and does not know of any test that could have indicated defendant was in
possession of a gun. None of this evidence proves, beyond a reasonable doubt,
that defendant possessed a firearm as defined by La. R.S. 14:37.4(B). One can
only conclude a rational trier of fact could find defendant possessed a real gun by
abandoning proof beyond a reasonable doubt of the specifics outlined in La. R.S.
14:37.4(B) about what constitutes a firearm. A firearm must be “an instrument
used in the propulsion of shot, shell, or bullets by the action of gunpowder
exploding within it.” There cannot be uncertainty, extrapolation, assumptions,
guessing, or preponderance of the evidence on this central fact if defendant is to
be found “Guilty” and sentenced to twenty years in prison. Miles v. United
States. 103 U.S. 304, 26 L.Ed. 481 (1881); Davis v. United States. 160 U.S. 469,
40 L.Ed. 499 (1895); Holt v. United States. 218 U.S. 245, 54 L.Ed. 1021 (1910);
Wilson v. United States. 232 U.S. 563, 58 L.Ed. 728 (1914); Jackson v. Virginia.

key witness, in self-preservation mode, then claimed to have not read the affidavit
closely, to not have agreed with certain statements in the affidavit, to signing it just to
end this case, etc. However, he never said he did not read and understand the affidavit
before signing it under the penalties of perjury, plus getting it notarized. In other
words, perjury by the Prosecution's key witness occurred either when signing the
affidavit before Trial or on the witness stand. Whichever it was, his testimony was un­
trustworthy and unreliable to prove a Statutory Firearm, especially being the only
g

443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979); In re Winship. 397 U.S. 358,
90 S.Ct. 1068, 25 L.Ed.2d 368 (1970)
MORE LAW
In State v. Green. 588 So.3d 757 (La. App. 1991), the appellate court said
something in one of its own decisions that is central in this case. It said the
following at page 758, “Nevertheless, the reviewing court may not disregard its
duty to consider whether the evidence is constitutionally sufficient simply
because the record contains evidence that tends to support each fact necessary to
constitute the crime.” (emphasis added). Of course, something can always be
found in a criminal case to support the crime(s) charged since the State would not
bring the case if that were not so. However, the court’s analysis cannot stop
there. “Constitutionally Sufficient Evidence” must always govern. Here, the
impossibility of anything offered by the prosecution proving, beyond a reasonable
doubt, “an instrument used in the propulsion of shot, shell, or bullets by the
action of gunpowder exploding within it” means a firearm was never before the
jury for consideration, and therefore, evaluating sufficiency of evidence is
“placing the cart before the horse.” The criminal court never should have
submitted this to the jury due to the constitutionally insufficient evidence of a
firearm as defined by statute. Moreover, the United States Supreme Court
undergirds State v. Green in the case of Jackson v. Virginia. 443 U.S. 307, 99
S.Ct. 2781, 61L.Ed.2d 560 (1979). It said at page 315, “The standard of proof
witness to have a close-up encounter with defendant to see the alleged "firearm.”
Further, he testified he did not know what was in defendant’s hand.

7

beyond a reasonable doubt,... plays a vital role in the American scheme of
criminal procedure, because it operates to give ‘concrete substance’ to the
presumption of innocence to ensure against unjust convictions, and to reduce the
risk of factual error in a criminal proceeding. At the same time by impressing
upon the factfinder the need to reach a subjective state of near certitude of the
guilt of the accused, the standard symbolizes the significance that our society
attaches to the criminal sanction and thus to liberty itself.” (emphasis added). If
there are doubts about a firearm from the key witness for the prosecution, the
one with marksman experience, the one closest to the defendant to see the object,
and the only one personally experiencing the object, there cannot be proof beyond
a reasonable doubt, i.e., “certitude of the guilt.” It is not just evaluating
sufficiency of evidence; the evidence evaluated cannot be in doubt since that
would depart from the “rational” directive a factfinder must exercise. This is
precisely what Jackson v. Virginia condemned. It said the following,
The Winship doctrine requires more than simply a trial ritual. A doctrine
establishing so fundamental a substantive constitutional standard must
also require that the factfinder will rationally apply that standard to the
facts in evidence. A ‘reasonable doubt,’ at a minimum, is one based upon
reason. Yet a properly instructed jury may occasionally convict even when
it can be said that no rational trier of fact could find guilt beyond a
reasonable doubt, and the same may be said of a trial judge sitting as a
jury. In a federal trial, such an occurrence has traditionally been deemed
to require reversal of the conviction.... Under Winship, which established
proof beyond a reasonable doubt as an essential of Fourteenth Amendment
due process, it follows that when such a conviction occurs in a state trial, it
cannot constitutionally stand. Jackson. 443 U.S. at 317-318.
Moreover, In re Winship. 397 U.S. 358, 90 S.Ct. 1068, 25 L.Ed.2d 368 (1970),

8

informed us also accordingly,
[A] person accused of a crime... would be at a severe disadvantage, a
disadvantage amounting to a lack of fundamental fairness, if he could be
adjudged guilty and imprisoned for years on the strength of the same
evidence as would suffice in a civil case. It is critical that the moral force
of the criminal law not be diluted by a standard of proof that leaves people
in doubt whether innocent men are being condemned. It is also important
in our free society that every individual going about his ordinary affairs
have confidence that his government cannot adjudge him guilty of a
criminal offense without convincing a proper factfinder of his guilt with
In re Winship,
utmost certainty, (emphasis added)
397 U.S. at 363-364.
The appellate court used a kind of preponderance of the evidence standard since
the prosecution’s clear failure to prove a firearm, as defined by statute, beyond a
reasonable doubt (i.e., utmost certainty) “fell off the radar” in the court’s analysis.
Stipulation of No Probable Cause for Charges
Closely connected to the prosecution’s failure to prove a firearm (as defined
by statute) beyond a reasonable doubt are [i] the criminal court finding and [ii]
the prosecution’s stipulation. Specifically, this was [ij the finding of insufficient
probable cause for the charges by the criminal court and [ii] the stipulation of no
probable cause in the case for the charges by the State. (Appendix, page 1). The
appellate court used State v. Baham. 117 So.3d 505 (La., 2013), to support trying
someone despite the criminal court’s finding of insufficient probable cause.
While that case, arguably, gives some support for that, it does not support the
State stipulating to NO probable cause in the case for charges. The State v.
Baham Case is distinguished for two important reasons: {i} the State did not
stipulate and {ii} there was no central fact in serious doubt upon which all the
9

charges rested. When the prosecution stipulated that there was no probable
cause in the case to charge defendant, it did not limit the stipulation, meaning no
probable cause in the sense of no probable cause here! This is precisely why
defendant’s counsel objected when the court set a Trial Date nonetheless.
(Appendix, page 1).

Black’s Law Dictionary defined stipulation as “Voluntary

agreement between opposing counsel concerning disposition of some relevant
point so as to obviate need for proof....” There is no such thing as a general
stipulation. There can be no reconciliation between stipulating to no probable
cause in the case by the State and then the defendant being charged, tried, and
sentenced to 20 years imprisonment for those same “no-probable-cause-forcharges-in-the-case” Charges. This kind of contradictory stuff jeopardizing a
citizen’s constitutional right to not be deprived of his liberty without due process
of law cannot stand, especially when there are lingering doubts after the trial
about there ever being a Statutory Firearm involved. This counters a near
century-and-a-half of established constitutional principles of protecting
defendants against any and all contradictory criminal proceedings that deprive
them of their liberty. Miles v. United States. 103 U.S. 304, 26 L.Ed. 481 (1881);
Davis v. United States. 160 U.S. 469, 40 L.Ed. 499 (1895); Holt v. United States.
218 U.S. 245, 54 L.Ed. 1021 (1910); Wilson v. United States. 232 U.S. 563, 58
L.Ed. 728 (1914); Brinegar v. United States. 338 U.S. 160, 93 L.Ed. 1879 (1949);
Holland v. United States. 348 U.S. 121, 99 L.Ed. 150 (1954)
[II]
10

Without proof beyond a reasonable doubt of a firearm, as defined by
statute, counts two and three “collapse upon themselves.” Possession of a
Firearm or Concealed Weapon by a Felon cannot “stand” without a Firearm.
Obstruction of Justice cannot arise where defendant discarded no firearm. The
prosecution rested its entire case on the existence of a firearm despite stipulating
that there was no probable cause for charging the defendant in this case. No
doubt, the prosecution knew it had no firearm, no evidence of any firearm with
“utmost certainty,” and made no search for a firearm.3 However, it still
“propped” counts two and three upon a firearm for support. No firearm means no
support, and counts two and three, of necessity, collapse upon themselves. The
appellate court missed this completely by analyzing these counts based on the
State proving a Statutory Firearm when it clearly did not. Of course, with this
kind of mistake, it found evidence for conviction on counts two and three.
However, without evidence of a Statutory Firearm, the appellate court’s finding
cannot be correct. Proceeding to support the criminal court’s conviction and
sentence nonetheless violated fundamental constitutional due process for the
defendant.
Appropriate for Review
This case is appropriate for review because if a United States Citizen can
be deprived of his liberty for 20 years when [i] he seeks to scare a neighbor with
an object because the neighbor frightened him in a harmless neighborhood
3 The Trooper gave some reason no search was done for the toy in the location
defendant told them he discarded it. The State decided to go to Trial without being

j\

argument; [ii] the neighbor and defendant acknowledged in multiple ways that
no firearm was involved; [iii] the Prosecution never proved a firearm as defined
by Louisiana Statute; [iv] the Prosecution never did a search for anything to
prove a firearm, and [v] the Prosecution stipulated to no probable cause in the
case prior to Trial, the due process clause of the Fourteenth Amendment of the
United States Constitution is undermined significantly, and a near century and a
half of legal precedent is ignored. Assuming, speculating, and guessing have no
place in criminal trials because they cannot provide the “utmost certainty”
demanded by In re Winshin. 397 U.S. 358, 90 S.Ct. 1068, 25 L.Ed.2d 368 (1970).
Also, Jackson v. Virginia. 443 U.S. 307, 99 S.Ct. 2781, 61L.Ed.2d 560 (1979),
prohibits a trial ritual with a criminal defendant’s fundamental right to liberty,
and when such occurs, the lower courts cannot be supported. Proof beyond a
reasonable doubt is indispensable Fourteenth Amendment Due Process, and
when absent in a state criminal trial, it cannot constitutionally stand. Jackson.
443 U.S. at 317-318
Basis For Priority Review
While the condition of a defendant is often not relevant, the defendant
herein used a cane during his trial due to various ailments and is now in a
wheelchair. The ailments are as follows: [i] Asthma, [ii] Chronic Obstructive
Pulmonary Disease, [iii] Type 2 Diabetes, [iv] Congestive Heart Failure, [v]
Obstructive Sleep Apnea, [vi] Hypertension/High Blood Pressure, [vii]

being thorough.

12

Hyperlipidemia/High Cholesterol, [viii] Chronic Back, Neck, & Knee Pain
requiring the use of a Cane and wheelchair, and [vix] Neuropathy (in 7/2018, a
Dr. Ridley of DOC “Cleared” the Applicant for medical care). With the defendant
deprived of fundamental constitutional due process and incarcerated for twenty
years in his mid-fifties, while ill, there is insult added to the constitutional
“injury” and the real likelihood of his life ending in prison.
[Ill] Verification
The Applicant, Reginald Jones, Defendant/Inmate, verifies the truth of all
allegations in this application and that a copy has been mailed to the Court of
Appeal, Fourth Circuit, and the District Attorney for Orleans Parish.
WHEREFORE, the Applicant/Defendant/Inmate respectfully requests [1]
that the Writ be granted, [2] that acquittal of all charges be summarily decided
due to the clarity of the law and facts, and [3] that defendant be immediately
released from nrison.
'nald Jq
feiend;

Date
ppncant/Inmate

/s/ Rickey Nelson Jones
Rickey Nelson Jones
Law Offices of Rev. Rickey
Nelson Jones, Esquire
3rd Floor - Suite 5
1701 Madison Avenue
Baltimore, MD 21217 / 410-462-5800
ioneses003@msn.com
Maryland Bar #: 12088
Pro Hac Vice & Lead Counsel
for Applicant

/s/ Alex K. Kriksciun
Alex K. Kriksciun
Law Office of Alex Kriksciun
400 Poydras Street, Suite 900
New Orleans, LA 70130
(504) 814-7396
alex@kriksciunlaw.com
Louisiana Bar#: 31819
Counsel for Applicant

13

J*

CERTIFICATE OF SERVICE
Applicant, Reginald Jones, the Defendant/Inmate, hereby gives notice, via
his attorneys, that on this 29th day of March, 2019, he served [1] the original, a
duplicate, and seven copies of his Application for Writ to the Louisiana Supreme
Court (Priority Mail, Confirmation Delivery), [2] a copy to the Clerk, Court of
Appeal, Fourth Circuit, and [3] a copy on Ms. Irena Zajickova, Assistant District
Attorney, Parish of Orleans, 619 S. White Street, New Orleans, Louisiana 70119
(First Class). ALSO, Applicant certifies, via his attorneys, that the District
Attorney was notified per Rule X, Section 2, of the filing of this Writ to the
Louisiana Supreme Court.

f
Date
mate

/s/ Rickey Nelson Jones
Rickey Nelson Jones
Law Offices of Rev. Rickey
Nelson Jones, Esquire
3rd Floor - Suite 5
1701 Madison Avenue
Baltimore, MD 21217
(410) 462-5800
ioneses003@msn.com
Maryland Bar #: 12088

Is/ Alex K. Kriksciun
Alex K. Kriksciun
Law Office of Alex Kriksciun
400 Poydras Street, Suite 900
New Orleans, LA 70130
(504) 814-7396
alex@kriksciunlaw.com
Louisiana Bar #: 31819
Counsel for Applicant

Pro Hac Vice & Lead
Counsel for Applicant

14

